HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Part B Reimbursement by Blue Cross and Blue Shield of Louisiana, (A-07-95-01142)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Part B Reimbursement by
Blue Cross and Blue Shield of Louisiana," (A-07-95-01142)
February 7, 1996
Complete Text of Report is available in PDF format
(195 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Part B Reimbursement by Blue Cross and Blue Shield of Louisiana
(Louisiana). For the years 1987 through 1989, we determined that Louisiana under
claimed allowable medicare Part B pension costs. During this period, the allowable
Medicare Part B pension costs were $125,668. However, Louisiana claimed pension
costs of $40,122 for Medicare reimbursement. As a result, Louisiana did not
claimed $85,546 of allowable Part B pension cost. The under claim occurred primarily
because Louisiana did not base their claim on separately computed pension costs
for the Medicare segment, calculated in accordance with the Cost Accounting
Standards (CAS). We recommended Louisiana revise its claim for Medicare reimbursement
to reflect the remaining allowable pension costs.